No.

-6179
■< ri ijwy 111 tei__

i Li

1}

IN THE
SUPREME COURT OF THE UNITED STATES

filed
OCT 1 9 2020
HAI A. DUONG — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

HAI A. DUONG
613130, CYPRESS—3
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

QUESTIONS PRESENTED
1.

Under the particularized need doctrine, indigent defendants are
allowed to file applications for post-conviction relief without
supporting documentation after having made specific references to
constitutional violations in their trial. Duong filed an application for
post-conviction relief that satisfied this constitutional obligation but
was denied access to the record and his claims denied as speculation
and conclusory allegations. Was Duong denied due process and equal
protection when the lower courts deprived him of an opportunity to
collaterally attack his convictions and sentences?

2.

The prosecutor intentionally drew the jury’s attention to Duong’s post­
arrest silence to impeach him and call him guilty contrary to Doyle v.
Ohio 426 U.S. 610 (1976). The lower courts agreed the violation was
serious but said it was harmless because the evidence was
overwhelming. Because only testimonial evidence was presented,
should Duong have been afforded a new trial free from an error that
clearly prejudiced him in the minds of the jurors?

u

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

in

TABLE OF CONTENTS
PAGE NO.
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

CONFIDENTIALITY OF NAMES

4

STATEMENT OF THE CASE

4

REASONS FOR GRANTING AND STAYING THE WRIT

6

1.

The lower courts have deprived Duong of his due process and equal
protection rights contrary clearly established law, as determined by
this Court and the Fifth, Sixth and Fourteenth Amendments to the
7
United States Constitution

2.

The prosecutor made numerous improper references to Duong’s postMiranda silence contrary to clearly established law as determined by
9
this Court,
19

CONCLUSION
INDEX TO APPENDICES

PAGE

APPENDIX
A

Order Denying CO A

1

B

District Court’s Order and Judgment

3

C

Magistrate Judge’s Report and Recommendation

7

IV

D

State Supreme Court’s Denial of Post-Conviction Relief

60

E

State Appellate Court’s Denial of Post-Conviction Relief

62

F

Trial Court’s Denial of Post-Conviction Relief

66

G

State Supreme Court’s Denial of Certiorari on Direct
Appeal

68

H

State Appellate Court’s Opinion on Direct Appeal

69

I

Original Memorandum in Support of Application for
Post-Conviction Relief with Request for Supporting
Documentation and Discovery

110

J

Motions for Production of Documents under
Particularized Need

138

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
6

Andrade v. Gonzalez, 459 F.3d 538 (5th Cir. 2006).
Brecht v. Abrahamson, 507 U.S. 619, 113 S.Ct. 1710 (1993)
Doyle v. Ohio, 426 U.S. 610, 96 S.Ct. 2240 (1976)

16

6,13,14,15,16,17,18

Greer v Miller, 483 U.S. 756, 107 S.Ct. 3102 (1987)

16

Jenkins v. Anderson, 447 U.S. 231, 100 S.Ct. 2124 (1980)

16

Lane v. Brown, 372 U.S. 477, 83 S.Ct. 768 (1963)
Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602 (1966)

v

8
10,14,15,16,17,18

Ross v. Moffitt, 417 U.S. 600, 94 S.Ct. 2437 (1974).
Salinas v, Texas, 570 U.S.

, 133 S.Ct. 2174 (2013)

Smith v. Bennett, 365 U.S. 708, 89 S.Ct. 895 (1969)
South Dakota v. Neville, 459 U.S. 553, 103 S.Ct. 916 (1983)
State ex rel. Bernard v. Orleans Criminal District Court Section J,
94-2247 (La. 4/28/95), 653 So.2d 1174...........................................
State v. Arvie, 505 So.2d 44, 46 (La. 1987)
State v. Duong, 13-763, (La. App. 5 Cir. 8/8/14); 148 So.3d 623,
writ denied, 2014-1883 (La. 4/17/15); 168 So.3d 395..................

7,8
16
8
15,16
8
20

4

State v. Ladesma, 01-1413 (La. App. 5 Cir. 4/30/02); 817 So.2d390

20

State v. Montoya 340 So.2d 557 (1976)

16

State v. Pierce, 11-320 (La. App. 5 Cir. 12/29/11); 80 So.3d 1267

14

State v. Widenhouse, 582 So.2d 1374 (La. App. 2 Cir. 1991)

19

State v. Williams, 902 So.2d 485 (La. App. 5 Cir. 4/26/05)

20

United States v. MacCollom, 426 U.S. 317, 96 S.Ct. 2086 (1976)

6,8

United States v. Ruz- Salazar, 764 F.2d 1433 (11th Cir. 1985)

19

United States v. Shaw, 701 F.2d 367 (5th Cir. 1983);
cert denied, 465 U.S. 1067, 104 S.Ct. 1419 (1984)...

18

Wainwright v. Greenfield, 474 U.S. 284 106 S.Ct. 634 (1986)

15,16,17

STATUTES AND RULES
Fed. R. Crim. P.49.1

5
vi

La. R.S. 46:1844(W)(3)

5

OTHER
Rule 10 of the United States Supreme Court

Vll

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review
the judgment below.
OPINIONS BELOW
[x]

For cases from federal courts;
The opinion of the United States Fifth Circuit Court of Appeals
appears at Appendix A to the petition and is unpublished.
The opinion of the United States Eastern District Court of
Louisiana appears at Appendix B to the petition and is reported at
2019 WL1558008.

[x]

For cases from state courts:
The opinion of the Louisiana Supreme Court to review the merits
appears at Appendix G to the petition and is reported at 2014-1883
(La. 4/17/15); 168 So.3d395.
The opinion of the Louisiana Fifth Circuit Court of Appeal appears
at Appendix H to the petition and is reported at 13-763, (La. App. 5
Cir. 8/8/14); 148 So.3d623.
JURISDICTION

[x]

For cases from federal courts;
The date on which the United States Fifth Circuit Court of Appeals
decided my case was August 25, 2020.

1

[x]

No petition for rehearing was timely filed in my case.
The jurisdiction of this Court is invoked under 28 U.S.C. §

1254(1).

[x]

For cases from state courts:
The date on which the Louisiana Supreme Court decided my case was
August 4, 2017.
A copy of that decision appears at Appendix D.
The jurisdiction of this Court is invoked under 28 U.S.C. §

1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the United States Constitution provides in
pertinent part:
[N]or shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property
without due process of law[.]
The Sixth Amendment to the United Sates Constitution provides in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury.
The Fourteenth Amendment to the United Sates Constitution provides
in pertinent part:
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Article I § 16 of the Louisiana Constitution:
No person shall be compelled to give evidence against himself.

3

CONFIDENTIALITY OF NAMES
Fictitious names have been assigned to JT and NT for easier reading. IT
is called Janet and NT Nicole. Fed. R. Crim. F. 49.1; La. R.S. 46:1844(W)(3).
STATEMENT OF THE CASE
On June 21, 2012, Duong was formally charged by a five count
indictment: counts 1 and 2 accused him of aggravated rape; counts 3 and 4
accused him of molestation of a juvenile; and count 5 accused him of aggravated
oral sexual battery, all in violation of Louisiana law. On July 18, 2012, Duong
pled not guilty to the allegations. A jury was selected June 10, 2013, aid began
June 11, 2013. On June 12, 2013, a non-unanimous jury returned a verdict of
guilty as charged on counts 1, 3, 4 and 5. On count 2, the non-unanimous
jury returned a verdict on the lesser charge of attempted aggravated rape.
The trial court sentenced Duong to imprisonment terms of: life on count 1;
fifty years on count 2; fifteen years each on counts 3 and 4; and 10 years on
count 5. The sentences are to be served at hard labor, concurrently and
without the benefits of probation, parole or suspension of sentence. Duong
was unsuccessful in the direct appeal of his convictions and sentences. State
v. Duong, 13-763, (La. App. 5 Cir. 8/8/14); 148 So.3d 623, writ denied,
2014-1883 (La. 4/17/15); 168 So.3d 395.

4

On August 24, 2015, Duong filed an Application for Post-Conviction
Relief (“APCR”) and Request for Supporting Documentation and Discovery
along with motions for production of documents under the particularized
need doctrine. Appendix I, pp. 110-137. The trial court denied relief and
said Duong failed to:
... provide any facts or evidence in support of []his claimfs].
The court finds the claim is speculative and conclusory ...
Petitioner fails to provide any evidence or exhibits in support of
this claim ... The court finds this claim completely speculative
and conclusory.
Appendix F, pp. 66-68.
The trial court, as well as the other state and federal courts, failed to
consider Duong’s APCR was filed to present colorable claims that would
entitle him to a free copy of the trial record because he never received a
copy of the record during the direct appeal of his convictions and sentences.
The United States Eastern District Court of Louisiana denied and dismissed
Duong’s petition for writ of a habeas corpus August 10, 2019, and refused to
issue a certificate of appealability. On August 25, 2020, the Fifth Circuit
Court of Appeals denied Duong’s request for a Certificate of Appealability.
This instant petition for a writ of certiorari timely follows.

5

REASONS FOR GRANTING THE WRIT
Under Rule 10, the Louisiana courts and the United States Court of
Appeals for the Fifth Circuit has contrarily decided an important question of
federal law that has been settled by this Court and has decided an important
federal question in a way that conflicts with relevant decisions of this Court
as set forth below:
The state appellate court acknowledged that Duong presented a serious
Doyle violation and not one court thereafter disputed it. The federal district
court claimed that Duong’s Fifth Amendment claim is unexhausted and
defaulted because, allegedly, Duong only referenced the Fifth Amendment in
his brief and failed to argue it. The lower courts have obviously overlooked
that Duong is a pro se petitioner who is entitled to liberal construction.
Andrade v. Gonzalez, 459 F.3d 538, 543 (5th Cir. 2006).
Additionally, Duong has been deprived of his right to collaterally
attack his convictions and sentences because he was denied a copy of the
trial record after he presented colorable claims and met legal requirement of
showing a particularized need for the requested documents. See United
States v. MacCollom, 426 U.S. 317, 324, 96 S.Ct. 2086, 2091, 48 L.Ed.2d

6

666 (1976) (quoting Ross v. Moffitt, 417 U.S. 600, 616, 94 S.Ct. 2437, 2447,
41 L.Ed.2d 341 (1974).
1.

The lower courts have deprived Duong of his due process and equal
protection rights contrary to clearly established law, as determined by
this Court and the Fifth, Sixth and Fourteenth Amendments to the
United States Constitution.
According to the federal district court, “Duong d[id] not present any

evidentiary support, and the record contains nothing, to suggest or establish
his actual innocence on the underlying convictions. In other words, he fails
to present any evidence or argument of the kind of actual innocence that would
excuse the procedural default.” Appendix C, p. 28. The district court’s
contention is clearly erroneous in light of the particularized need doctrine.
Lam v, Brown, 372 U.S. 477, 83 S.Ct. 768, 9 L.Ed.2d 892 (1963); Smith v.
Bennett, 365 U.S. 708, 89 S.Ct. 895, 6 L.Ed.2d 39 (1969); State ex ret Bernard
v. Orleans Criminal District Court Section J, 94-2247 (La. 4/28/95); 653 So.2d
1174. In fact, the district court acknowledged that the trial court did not
provide Duong with a free copy because he, allegedly failed to make “a
sufficient showing of particularized need for a free copy of the other
transcripts.” Appendix C, p. 19. However, the trial court’s reason(s) for
refusing to provide Duong with a free copy of the record is what guarantees
Duong relief under § 2254. See Appendix F, pp. 66-67.
7

The Louisiana Supreme Court, applying clearly established federal
law—as determined by this Court—held:
[A]n indigent inmate has the constitutional right to free copies
only in those instances in which he shows that denial of the
request will deprive him of an “adequate opportunity to present
[his] claims fairly.” United States v. MacCollom, 426 U.S 317,
324, 96 S.Ct. 2086, 2091, 48 L.Ed.2d 666 (1976) (quoting Ross
v. Moffitt, 417 U.S. 600, 616, 94 S.Ct. 2437, 2447, 41 L.Ed.2d
341 (1974)). Meeting that constitutional threshold requires a
showing of what this Court has called “particularized need.”
State ex rel Bernard v. Criminal District Court Section J, 653 So.2d at 1175.
When Duong submitted his properly filed Application for PostConviction Relief and Request for Supporting Documentation and Discovery,
he explained he was relying on his memory and cited applicable state and
federal law to support his request. See Appendix I, pp. 110-37.
The federal district court noted that there is “no general due-process
right of access to state-court, records on collateral review in criminal
proceedings” Appendix C, p. 32. However, as a disadvantaged indigent, the
Fourteenth Amendment and its Fifth Amendment counterpart gives Duong
“an adequate opportunity to present [his] claims fairly ...” U.S. v. MacCollom,
426 U.S at 324, 96 S.Ct. at 2091. Even so, the court claimed Duong should
not be given a copy of the record to perfect his claims. In support of his
request, Duong argued that he was denied his constitutional right to the
8

effective assistance of counsel and that his trial was adversely affected by
prosecutorial misconduct. Appendix I, pp. 110-37.
2.

The prosecutor made numerous improper references to Duong’s
post-Miranda silence contrary to clearly established law as
determined by this Court.
In Duong’s case, the prosecutor candidly admitted: “I was just going to

ask him if he was informed of his rights and if he was willing to make a
statement... .He’s informed me of his rights, and he is cognizant of his rights,
and he is taking advantage of the constitutional rights that he understands.”
Over trial counsel’s objection, and with the trial court’s permission, the
prosecutor asked Detective Richard Broussard if Duong agreed to give him a
statement. The detective said Duong did not want to give a statement after he
was advised of his rights because, the detective said, Duong’s attorney advised
him not to talk to the police. In his closing argument, the prosecutor reminded
the jury that “... when the police went to interview [Duong] at the jail here, he
had a lawyer before they even got there. So at some point, over the 13 years
that he was gone, he did learn about the legal system. Did he call anybody
down here? Did he turn himself in? No. He stayed on the run until he was
caught. That’s what he did because he is guilty.” There is no dispute in this
case that the prosecutor’s statements and questions were designed to draw

9

the jury’s attention to Duong’s exercise of his right to counsel and to remain
silent.
The prosecutor asked Detective Broussard about Duong’s apprehension
and extradition back to Louisiana. Detective Broussard said Duong had been
pulled over in a routine traffic stop in Cheyenne, Wyoming, when the arresting
officer learned he was wanted in Louisiana. When Duong arrived in Jefferson
Parish, Louisiana, Detective Broussard came into contact with him for the
first time. R. pp. 434-35;
STATE:

Okay. Was Mr. Duong subsequently extradited back to
Louisiana?

WITNESS:

Yes, he was.

STATE:

Okay. Did you ever have the occasion to meet with Mr.
Duong?

WITNESS:

Well, when he was returned here and I was aware that he
was arrested and returned to Jefferson Parish, myself
and my partner at that time, Detective Thibideaux went
to Jefferson Parish Correctional Center, which was on the
12th of March 2012.1 had called in advance to have him
brought down to intake booking.

DEFENSE:

May I approach the bench?

COURT:

Yes.

(Bench conference)
DEFENSE:

I think we’re at this-

COURT:

All right. And let me say this right now. Quietly.

STATE:

Okay.
10

DEFENSE:

This is going that he went down and talked to him, and
he said, I have an attorney who’s advised me not to talk
to you. Okay?

COURT:

Uh-huh.

DEFENSE:

And I don’t think that’s admissible. It was against his
constitutional right. And it’s within his privilege not []
to remain silent. And I don’t think it can be used as
evidence. They’re presenting it as evidence. Since they
don’t have a statement, they should stop.

COURT:

You want him to testify as to what his attorney advised
him?

STATE:

No. I was just going to ask him if he was informed of
his rights and if he was willing to make a statement.

DEFENSE;

And that—Right. And I don’t think you can do that. I
don’t think that—He’s under no obligation to give that
statement.

STATE:

He’s informed of his rights, and he is cognizant of his
rights, and he is taking advantage of the constitutional
rights that he understands.

COURT:

I’m going to overrule the objection.

DEFENSE:

Note our objection.

(Bench conference ends)
STATE:

When you met with Mr. Duong, Detective, was he
advised of his rights?

WITNESS:

He was advised of his rights, yes.

STATE:
WITNESS:
STATE:
WITNESS:
STATE:

Did you do that?

Yes, I did.
Did you need an interpreter?
No, no.
Did he indicate to you that he understood his rights?

11

WITNESS:

He understood his rights, yes.

STATE:

Okay. Did he agree to give you a statement?

WITNESS:

No. After I told him I wanted to talk—after I advised
him of his rights, I wanted to talk to him about the
charges, he immediately told me that he and his family
had secured an attorney, Bruce Netterville. And he told
me his attorney told—advised not to talk to me. I then
stopped ....I didn’t interview. I didn’t have anymore
questions. And I left.

R. pp. 435-437.
Duong’s trial counsel alerted the trial court and the prosecutor to the
specific problem he anticipated in a timely and professional manner. The
court overruled counsel’s objection and allowed the prosecutor to trample
Duong’s constitutional right and ask Detective Broussard to highlight
Duong’s exercise of his right to remain, silent. Making matters worse, the
prosecutor launched, what amounts to, a personal attack against Duong and
asked the jury:
What else did he do when he was on the run?... when the police
went to interview him at the jail here, he had a lawyer before
they even got there. So at some point, over the thirteen years
that he was gone, he did learn about the legal system. Did he
call anybody down here? Did he turn himself in? No. He stayed
on the run until he was caught. That’s what he did because he is
guilty. That’s why he fled.
R. pp. 12-13.

12

Contrary to law, as determined by this honorable Court, the prosecution
used Duong’s exercise of his right to remain silent to impeach him.
The lower courts acknowledged that the State’s reference to Duong’s
post-Miranda silence was indeed serious; however, the lower courts claim
the violations were not serious enough in the face of the so-called
overwhelming evidence. Granted, the testimony of any witness, if believed,
is sufficient to convict and affirm a conviction; however, where one victim
is impeached by the prosecution’s expert testimony and the expert’s
testimony itself is suspect, the verdict in this case cannot be considered
reliable. The Doyle violation in this case is clear and Duong was deprived of
his constitutional right to not have the prosecutor taint the jury against him
because he chose to exercise his Fifth Amendment right to remain silent.
The lower courts have unconstitutionally justified the prosecution’s repeated
and calculated attempts to focus the jury’s attention on Duong “lawyering up.”
The Fifth Amendment to the United States Constitution holds that no
one “shall be compelled in any criminal case to be a witness against himself.”
Likewise, Article I § 16 of the Louisiana Constitution holds that no one “shall
be compelled to give evidence against himself.” To protect this substantial
right, this Court has held that “the prosecution may not use statements,

13

whether exculpatory or inculpatory, stemming from custodial interrogation
of the defendant unless it demonstrates the use of procedural safeguards
effective to secure the privilege against self-incrimination.” Miranda v.
Arizona, 384 U.S. 436, 444, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966). “At the
outset,” the Court ruled, “if a person in custody is to be subjected to
interrogation, he must first be informed in clear and unequivocal terms that
he has the right to remain silent.” Miranda v. Arizona, 384 at 467-468. And,
“[tjhe warning of the right to remain silent must be accompanied by the
explanation that anything said can and will be used against the individual in
court.” Miranda v. Arizona, 384 at 469. The Court said the “warning is
needed in order to make him aware of the privilege, but also of the
consequences of foregoing it.” Miranda v. Arizona, 384 at 469. The Court
also said that “[o]nce warnings have been given, the subsequent procedure is
clear. If the individual indicates in any manner, at any time prior to or
during questioning, that he wishes to remain silent, the interrogation must
cease.” Miranda v. Arizona, 384 at 473-474.
As the Court is aware, the use of a defendant’s post-Miranda silence is
commonly referred to as a “Doyle” violation. Doyle v. Ohio, supra; Slate v.
Pierce, 11-320, pp. 6-7 (La. App. 5 Cir. 12/29/11); 80 So.3d 1267, 1272.

14

More than thirty-five years ago, this honorable Court decided that “it would
be fundamentally unfair and a deprivation of due process to allow the arrested
person’s silence to be used to impeach an explanation subsequently offered
at trial.” Doyle v. Ohio, 426 U.S. 610, 618, 96 S.Ct. 2240, 49 L.Ed.2d 91
(1976). In doing so, the Court explicitly rejected the prosecution’s argument
that it ought to be able to cross-examine a defendant to impeach him because
“the discrepancy between an exculpatory story at trial and silence at time of
arrest gives rise to an inference that the story was fabricated somewhere
along the way.” Doyle v. Ohio, 426 U.S. at 616. The Court explained that
“[sjilence in the wake of these warnings may be nothing more than the
arrestee’s exercise of these Miranda rights... .Thus, every post-arrest silence
is insolublv ambiguous because of what the State is required to advise the
person arrested.” Doyle v. Ohio, 426 U.S. at 617.
The Court also held “that the use for impeachment purposes of [a
defendant’s] silence, at the time of arrest and after receiving Miranda
warnings, violate[s] the Due Process Clause of the Fourteenth Amendment.”
Doyle v. Ohio, 426 U.S. at 618; also see Wainwright v. Greenfield, 474 U.S.
284, 291, 106 S.Ct. 634, 88 L.Ed.2d 623 (1986), (quoting South Dakota v.
Neville, 459 U.S. 553, 565, 103 S.Ct. 916, 74 L.Ed.2d 748 (1983)). This

15

Court reaffirmed its ruling that post-Miranda silence in itself is invocation of
the right and “pointing to the fact that a defendant was silent after he heard
Miranda warnings” violates due process, Salinas v. Texas, 570 U.S., n. 3, 133
S.Ct. 2174, n. 3, 186 L.Ed.2d 376 (2013); also see Jenkins v, Anderson, 447
U.S. 231, 240, 100 S.Ct. 2124, 65 L.Ed.2d 86 (1980); State v. Montoya., 340
So.2d 557 (1976) (trial court erred in allowing arresting officer to testify
that defendant remained silent after arrest).
The Court has recognized in, numerous post-Doyle opinions, that the
Doyle rule rests on the fundamental unfairness of implicitly assuring a suspect
that his silence will not be used against him and then using his silence to
impeach an explanation offered at trial. Wainwright v. Greenfield, supra;
South Dakota v. Neville, supra; also see Brechtv. Abraham.son, 507 U.S. 619,
628, 113 S.Ct. 1710, 1716, 123 L.Ed.2d 353 (1993); Greer v Miller, 483 U.S.
756, 763, 107 S.Ct. 3102, 3107-3108, 97 L.Ed.2d 618 (1987). The source of
this “implicit assurance” is the giving of Miranda warnings, through which a
person taken into custody is expressly advised “that he has the right to remain
silent ... and that he has a right to retained or appointed counsel before
submitting to interrogation.” See Doyle, 426 U.S., at 617, 96 S.Ct. at 2244.
Thus, although the improper references at issue in Doyle concerned only the

16

defendant’s post-Miranda silence, the prohibition extends equally to
impeachment use of a defendant’s post-Miranda invocation of the right to
counsel. See Wainwright, 474 U.S. at 295 & n. 13, 106 S.Ct. at 640 & n. 13;
United States v. McDonald, 620 F.2d 559, 562-63 (5 Cir. 1980).
In Wainwright v. Greenfield, supra, the prosecutor argued that the
defendant’s silence, after receiving Miranda warnings, was evidence of his
sanity. The Court held that use of the defendant’s post-arrest silence as
evidence of his sanity violated due process. The Court found no distinction
between the use of such comments during the State’s case-in-chief, in
rebuttal, or between use on the merits of the crime or for attacking a sanity
defense. As noted above, the rationale of these cases rest on the fundamental
unfairness of implicitly assuring a suspect that his silence will not be used
against him and then using his silence, or his exercise of the right to counsel,
against him at trial.
There are two tests for determining if a prosecutor’s remarks constitute
as a comment on a defendant’s silence in violation of Doyle and its progeny:
(1) whether the manifest intent was to comment on defendant’s silence; and
(2) whether the character of the remark was such that the jury naturally would
construe it as a comment on defendant’s silence. United States v, Shaw, 701

17

F.2d 367, 381 (5th Cir. 1983), cert denied, 465 U.S. 1067, 104 S.Ct. 1419,
79 L.Ed,2d 744 (1984); also see State v. Widenhouse, 582 So.2d 1374, 13841385 (La. App. 2 Cir. 1991).
The Prosecution’s questions in Greer v. Miller; supra, and Doyle
focused the jury on the defendant’s silence. In Greer, after the defendant gave
an exculpatory story at trial, the prosecutor asked the defendant, “Why didn’t
you tell this story to anybody when you got arrested?” Greer, 483 U.S. at 759,
107 S.Ct. at 3105. In a similar way, the defendant in Doyle offered an
exculpatory story during trial and the prosecutor asked him: “If that is all you
had to do with this and you are innocent, when [Agent] B earner arrived on the
scene why didn’t you tell him?” Doyle, 426 U.S. at 614, 96 S.Ct. at 2243. In
United States v. Ruz- Salazar, 764 F.2d 1433, 1435 (11th Cir. 1985) the
prosecution asked the Customs officer who was testifying for the government,
“Did anyone else make any statements while aboard the vessel?” The officer
said “no” thus highlighting the defendant’s silence. Again, the question posed
by the prosecution specifically called attention to the defendant’s silence and
constituted a Doyle violation.
A prosecutor cannot make a reference to an accused exercising his
constitutional right to remain silent, after he had been advised of the right,

18

solely to ascribe a guilty meaning to liis silence or to undermine, by
inference, an exculpatory version related by an accused for the first at trial.
State v. Arvie, 505 So.2d 44, 46 (La. 1987); State v. Williams, 902 So.2d
485, 495-496 (La. App. 5 Cir. April 26, 2005); State v. Ladesma, 01-1413
(La. App. 5 Cir. 4/30/02); 817 So.2d 390, 393.
CONCLUSION
For the foregoing reasons Duong’s petition for a writ of certiorari
should be granted.
Respectfully submitted,

Hai A. Duong
Date: October

\X> . 2020

19

